U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT

            STUDENT BANK AT
          SOUTHWESTERN INDIAN
          POLYTECHNIC INSTITUTE

            REPORT NO. 9744301
               SEPTEMBER 1997
              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240


                                                                      ocl- - 7 1997
MEMORANDUM

TO ..

FROM:


SUBJECT SUMMARY:             Final Audit Report for Your Information - “Student Bank at
                             Southwestern Indian Polytechnic Institute” (No. 97-I-l301)

Attached for your information is a copy of the subject final audit report. The objective of the
audit was to determine whether the Southwestern Indian Polytechnic Institute administered
the student bank in accordance with applicable requirements.

Although the Institute did not operate the student bank in complete compliance with
applicable requirements, we concluded that the Institute did adequately account for student
bank funds. Specifically, the commercial checking account was adequately supported by
subsidiary accounts; recorded transactions were supported by proper documents such as
deposit receipts, withdrawal slips, and payment vouchers; withdrawal slips and requests for
voucher payments were approved by authorized individuals; club account files contained plans
of operation and periodic statements were sent to all of the clubs that we reviewed; interest
earned from the school bank’s commercial bank account was used for authorized purposes;
and the school bank facility was adequate to safeguard funds. However, we noted that the
Institute transferred unclaimed student deposits and fees of $12,486 to the Institute’s
Foundation rather than refunding this amount to the students, as required by the Bureau of
Indian Affairs Manual, or crediting this amount to the Bureau’s appropriation, as required by
the United States Code. Also, the Institute did not ensure that personnel complied with
applicable Manual requirements and/or the Institute’s plan of operations regarding controls
over certain student bank operations.

Based on the response from the Assistant Secretary for Indian Affairs, we considered
four of the report’s five recommendations resolved and implemented and the remaining
recommendation resolved but not implemented.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
M?. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.



Attachment
                                                                         C-IN-BIA-005-97


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240




                                  AUDIT REPORT

Memorandum

To ..     Assistant Secretary for Indian AfECrs

From:     Robert J. Williams
          Assistant Inspector

Subject: Final Audit Report on the Student Bank at Southwestern Indian
         Polytechnic Institute (No. 97-I-1301)

                                 INTRODUCTION
This report presents the results of our audit of the student bank at Southwestern Indian
Polytechnic Institute. The objective of the audit was to determine whether the Institute
administered the student bank in accordance with applicable requirements.

BACKGROUND
The Institute, located in Albuquerque, New Mexico, was established in 197 1. According to
the Institute’s Board of Regents, the mission of the Institute is to provide a:

        . . . post-secondary learning environment within which, American Indian
        students: reinforce academic capabilities, develop foundations in mathematics,
        science, communication and the humanities and acquire advanced technical,
        scientific, administrative, social, political and business skills needed by
        industry and tribal governments to stimulate commercial development,
        produce quality products, protect traditions, manage natural resources,
        administer tribal affairs and increase employment opportunities throughout the
        national Indian community.

Student enrollments at the Institute for the semesters that began in September 1994 and
September 1995 were 639 and 643, respectively, and the funding Corn the Bureau of Indian
Af%irs for fiscal years 1995 and 1996 was about $5.5 million for each year.
The student bank provided services for enrolled students, student clubs, and the Institute’s
Financial Aid and Accounting Departments that included servicing individual and student
activity accounts, cashing checks, and collecting and disbursing registration fees. The student
bank also collected and recorded transcript fees and replacement fees for items such as lost
library books or room keys. The Institute’s Financial Aid Department also used the student
bank to record the receipt and disbursement of Federal and tribal aid to individual students.

The Bureau of Indian Affairs Manual (62 BIAM 8.L.7) requires that written plans of
operation be prepared for student banks and for each student activity or club. According to
the Manual, the plan should include the title of the student activity or club, purpose and
membership requirements of the activity or club, a description of how student activity or club
funds are to be used, and a description of the system that is to be used to account for the
funds. For student banks, the Manual requires that the bank be operated to safeguard student
activity and personal funds and to provide for the deposit, withdrawal, and accounting of
personal funds for individual students.

The Manual has procedures for receiving and recording deposits, paying and recording
withdrawals, making payments to vendors for depositors, balancing accounts, issuing periodic
statements to depositors, and closing accounts and disposing of unclaimed balances. In
addition, the Manual requires the bank to have insurance coverage to protect student bank
funds on hand and those funds that are in transit to commercial depositories.

During the 1994-1995 school year, the student bank administered 205 individual, 16 student
club, and 66 tribal or agency financial aid accounts. During the 1995-1996 school year, the
student bank administered 165 individual, 19 student club, and 77 tribal or agency financial
aid accounts. The student bank also maintained six other accounts during the two school
years: (1) an interest account, which recorded the amount of interest for the commercial
checking account; (2) an overage/shortage account, which recorded overages and shortages
Corn daily transactions; (3) a student deposit account for refundable deposits; (4) an
unclaimed funds account for student deposits that were not claimed by students; (5) a
collections account for fees received for lost items; and (6) a transcript account for fees
collected for student transcripts. The student bank used an interest-bearing commercial
checking account to secure deposits that exceeded the student bank’s daily cash needs. Total
deposits and total disbursements, including adjustments related to the commercial checking
account, were $95 1,375 and $949,011, respectively, during the 1994-1995 school year, and
the account balance at the end of that school year was $20,843. Total deposits and total
disbursements, including adjustments related to the commercial checking account, were
$718,769 and $720,475, respectively, during the 1995-1996 school year, and the account
balance at the end of the school year was $19,137.

SCOPE OF AUDIT
Our audit was conducted from February through July 1997 at the Institute’s student bank
office and focused on bank activities that occurred during the 1994-1995 and 19953996
school years. To assist us in meeting our objective, we reviewed the requirements for student

                                              2
bank operations and interviewed bank and Institute personnel regarding operations, financial
aid, accounting procedures, and student clubs. For the 1994-1995 school year, we reviewed
the transactions recorded in 13 individual, 4 club, and 6 financial aid accounts, and for the
1995-1996 school year, we reviewed the transactions recorded in 10 individual, 3 club, and
11 financial aid accounts. In addition, we reviewed, for both school years, the transactions
recorded in the interest, overage/shortage, transcript, student deposit, unclaimed funds, and
collections accounts. We selected the accounts reviewed based on both the volume of
transactions and on the highest amount of the account balances at the end of each school year.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. We also reviewed the Secretary’s Annual Statement and Report to the
President and the Congress, which is required by the Federal Managers’ Financial Integrity
Act, for fiscal years 1994 and 1995 and determined that the Secretary had not reported any
material weaknesses related to the Institute’s student bank.

PRIOR AUDIT COVERAGE
During the past 5 years, the General Accounting Office has not issued any reports related to
the Institute’s student bank. However, the Office of Inspector General has issued one report
that addressed the Institute’s student bank. The audit report titled “Followup of
Recommendations Concerning Southwestern Indian Polytechnic Institute, Bureau of Indian
Affairs” (No. 93-I-657), issued in February 1993, stated that the Institute improperly used
interest earned on the commercial checking account to fund student graduation activities in
1991 and 1992. The report further stated that the use of interest earnings was not in
accordance with the Bureau of Indian Af&irs Manual (62 BIAM 8.7G(14)) requirement
which specmes that interest “may be expended in payment of insurance premiums and other
necessary expenses of [bank] operations. ” In August 1992, the Director, Office of Indian
Education Programs, authorized the president of the Institute to expend interest earned on
the commercial checking account on events, activities, and material items “which clearly and
solely benefit all., or a specific portion of the student body” and stated that such expenditures
were not to exceed $4,000 in any fiscal year. The report recommended that the Manual be
revised to reflect this new policy.

                               RESULTS OF AUDIT
Although the Southwestern Indian Polytechnic Institute did not operate the student bank in
complete compliance with applicable requirements, we concluded that the Institute adequately
accounted for student bank funds. In that regard, we found that the commercial checking
account was adequately supported by subsidiary accounts; recorded transactions were
supported by proper documents such as deposit receipts, withdrawal slips, and payment
vouchers; withdrawal slips and requests for voucher payments were approved by authorized
individuals; club account files contained plans of operation and periodic statements were sent


                                               3
to all the clubs we reviewed; interest earned from the school bank’s commercial bank account
was used for authorized purposes; and the school bank facility was adequate to safeguard
funds. However, we noted that the Institute transferred unclaimed student deposits and fees

as required by the Bureau Manual, or crediting this amount to the Bureau’s appropriation., as
required by the United States Code. Also, the Institute did not ensure that personnel
complied with applicable Manual requirements and/or the Institute’s plan of operations
regarding controls over certain student bank operations.

Unclaimed Student Deposits and Fees

The Institute improperly disbursed $12,486 of unclaimed student deposits and fees collected
for lost books or dormitory room keys and for transcripts to the Institute’s Foundation rather
than refunding the deposits to the appropriate students and crediting fees collected to the
Bureau’s appropriation.

The Bureau Manual (62 BIAM 8.12) specifies that when students permanently leave school,
funds in their accounts are to be returned to them and the accounts are to be closed. The
Manual further states that ifthe students do not request the funds in their accounts, immediate
and aggressive action should be taken to locate the students and forward the balances in their
accounts to them. In addition, the Manual states that if the student is not located within a
reasonable period (which is not defined), the account is to be closed by transferring the
balance to a general student activity fund (unclaimed funds account), which would be subject
to claim and payment upon the student’s request. (The Manual does not specify the ultimate
disposition of these funds if they are not claimed by the students.) However, we found that
students frequently did not request refundable deposits when they left the Institute and that
the student bank did not take sufficient action to locate those students. Student bank
personnel generally attempted to contact each student through a telephone call when the bank
was notified that the student had withdrawn from the Institute, but followup calls or letters
were not used to inform students that they had funds due them. The bank transferred funds
not requested by the students to the bank’s unclaimed funds account and subsequently
disbursed the funds to the Institute’s Foundation.

The United States Code (25 U.S.C. 14b) specifies that the Secretary of the Interior is
authorized to retain collections from payments for goods and services provided by the
Bureau. The Code states, “Collections shall be credited to the appropriation account against
which obligations were incurred in providing such goods and services.” However, neither the
bank nor the Accounting Department initiated action to transfer fees collected for lost items
to the Bureau’s appropriation account.




’ The Foundation is a tax-exempt organization. that coordinates fund4sing activities for the Institute and
administers grants, bequests, gifts, donations, and endowments as authorized by the Institute’s Board of Regents.
Student bank personnel stated that they were directed by the Institute’s president, in a May
1995 memorandum to disburse the unclaimed student deposits and the fees collected to the
Foundation. As a result, in May 1995, the student bank issued to the Foundation two checks,
totaling $12,486, which consisted of unclaimed student deposits ($8,098) and fees collected
for lost books and keys ($4,300) and for transcripts ($88). The Institute’s president provided
the following written statement relative to the disbursements to the Foundation:

        Prior to School Year 1994-1995, there were inadequate, if any, procedures
        established and used by Student Bank personnel regarding unclaimed student
        deposits and fees. As a result of this, approximately $12,486 accumulated
        over a 20-22 year period and was maintained in three Student Bank accounts:
        A) Unclaimed Student Funds ($8,098); B) Lost Books and Keys ($4,300);
        and C) Transcripts ($88).         Once this was discovered by the SIPI
        [Southwestern Indian Polytechnic Institute] President, a memorandum was
        issued in May, 1995, directing that these funds be transferred to the Institute’s
        Support Foundation account. The purpose of this directive was to ensure
        greater accountability and control of the funds to guard and prevent any
        possible misuse of the funds. At the time, Student Bank personnel stated that
        all possible effort had been given to locating students with unclaimed deposits
        but, however, due to the timeframes (I 972-l 994) many students simply could
        not be located.

We concluded, as previously stated, that the Institute adequately accounted for student bank
funds but that the student bank generally did not take aggressive action to locate students and
forward the balances in their accounts. Specifically, when students could not be located by
initial telephone calls, the student bank did not make followup calls or issue letters to inform
the students that they had funds due them. We believe that refunding the deposits to the
students should be a priority of Institute personnel.

Compliance Issues
We identified instances in which the Institute did not comply with the requirements of the
Bureau Manual (62 BIAM) or the Institute’s plan of operation regarding controls over
student bank operations as follows:

      Monthly reconciliations of the student bank’s commercial checking account were
performed by the bank teller rather than by an employee who was independent of the student
bank. This control ensures proper segregation of the check writing, check posting, and check
reconciling functions. As a result of our discussion of this matter with the bank teller, the
March 1997 bank statement was independently reconciled by an individual of the Accounting
Department.

      Periodic bank statements were not prepared for all student accounts. This control
informs students of their account balances and activity and provides a control over the proper
recording of transactions through student confirmations of their account activity.

                                               5
    - Revenues from club fundraising activities were not supported by records of receipts or
sales journals. This control ensures that all revenues collected are deposited into the student
bank.

   - Withdrawal slips were not marked “paid” by the bank teller when payments were made.
This control helps to prevent duplicate payments.

     The student bank did not account for prenumbered deposit, withdrawal, voucher
payment, and journal voucher documents. This control ensures that all transactions are
accounted for and posted to the appropriate accounts.

    - Copies of deposit slips for transcript fee deposits were not provided to the Institute’s
records clerk. This control ensures that the appropriate amount of fees is deposited into the
transcript account.

    - The bank. supervisor was not designated in writing by the Institute’s president. This
control ensures that the bank supervisor is notified of his responsibilities. After we requested
a copy of the written designation, the bank supervisor obtained a designation, dated
February 19, 1997, and provided a copy to us.

    - The bank supervisor did not have access to the combination to the student bank’s safe.
This control ensures that an authorized individual has access to student bank funds in case of
an emergency. In addition, the bank supervisor notified us that the combination to the safe
had not been changed when the previous supervisor left in February 1994. In February 1997,
the Institute had a locksmith change the combination, and the Institute purchased a lockable
security box and secured the safe’s combination.

We concluded that these weaknesses existed because student bank and other Institute
personnel did not enforce internal control requirements. Our tests of student bank
transactions did not identify any adverse effects that resulted from these instances of
noncompliance. However, we believe that compliance with these requirements would help
ensure that internal controls over student bank funds are operating as designed.

Recommendations
We recommend that the Assistant Secretary for Indian Affairs ensure that:

    1. Funds improperly transferred to the Institute’s Foundation are returned to the
appropriate accounts.

   2. Written notices are sent to students who had deposit balances remaining in their
accounts when they left the Institute.

   3. Policies and procedures are developed for disposing of unclaimed deposits after
aggressive actions fail to locate students.

                                               6
    4. Fees collected from payments for items such as lost books or keys and for transcripts
are credited to the Bureau’s appropriate fiscal year appropriation-

    5. Institute personnel comply with the requirements of the Bureau of Indian AfEairs
Manual (62 BIAM) and the Institute’s plan of operation regarding controls over student bank
operations, including the specific requirements cited in this report.

Bureau of Indian Affairs Response and Office of Inspector General Reply

In the September 11, 1997, response (Appendix 1) from the Assistant Secretary for Indian
Affairs, the Bureau concurred with Recommendations 1, 3, and 4; nonconcurred with
Recommendation 2 but provided an alternative plan for resolving the recommendation; and
partially concurred with Recommendation 5. Based on the response, we consider
Recommendations 1,2,3, and 4 resolved and implemented and Recommendation 5 resolved
but not implemented. Accordingly, the unimplemented recommendation will be referred
to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

Recommendation 2. Nonconcurrence.

     Bureau of Indian Affairs Response. The Bureau stated that “as a result of the audit
work,” the Institute’s St&had initiated actions to identify former students who had unclaimed
deposits and to refund the deposits. Specifically, according to the Bureau, the staff sent
letters to 43 former students notifying them that they had unclaimed deposits totaling $645
and received responses from 11 former students that resulted in refunds totaling $230. The
Bureau said that based on the results of this effort, it determined that it would not be cost
effective to refund the remainder of the unclaimed student deposits. Furthermore, the Bureau
stated that because the amounts were “de minimis” (minimal) and the unclaimed deposits had
accumulated over a 25.year period, the Bureau proposed to resolve the recommendation by
crediting the Institute’s appropriation account with the remaining unclaimed funds rather than
continuing with implementation of the recommendation. The Bureau also stated that the
unclaimed student deposits would be transferred to the Institute’s appropriation account upon
resolution of the recommendation.

    Offxe of Inspector General Reply. Based on the actions planned, we consider the
recommendation resolved and implemented.

Recommendation 5. Partial concurrence.

    Bureau of Indian Affairs Response. The Bureau stated that the Institute is complying
with the Bureau of Indian AfEairs Manual and the student bank’s plan of operations control
requirements in that students are provided monthly statements, withdrawal slips are marked
paid, prenumbered control documents are used, and the records clerk is provided copies of
deposit slips. The Bureau also stated that the Institute had established a policy to require
students to obtain banking services from commercial facilities and that the Institute plans to

                                              7
revise the plan of operations regarding controls over student bank operations to conform to
the policy of requiring students to obtain commercial banking services by November 1997.
Further, the Bureau stated that updated procedures for student activity clubs would be
developed. Based on a subsequent discussion with Bureau officials, the target date for
completing the procedures is March 31, 1998.

    Offke of Inspector General Reply. Based on the actions planned, we consider the
recommendation resolved but not implemented.

Since the report’s recommendations are considered resolved, no further response to the Office
of Inspector General is required (see Appendix 2).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau of Indian Affairs personnel in the conduct of our
audit.
                                                                                        APPENDIX 1
                                                                                        Page 1 of 3
                 United States Department of the Interiw-




Memorandum

To ..          Assistant inspector General for Audits
                                                         .
From:          Ada E. Deer cyc[JL cJ- ?,                iL‘-24
               Assistant Secretary - Indian Affairs     ’

Subject:       Draft Audit Report on the Student Bank at Southwestern Indian Polytechnic
               Institute (SIPI) (Assignment No. C-IN-BIA-005-97)

We appreciate the opportunity to respond to the draft audit report. On page 6 of the draft report, it
is noted that certain actions were taken by the staff at SIPI during the audit field work. Specifically,
 the bank supervisor received the required written designation, and the combination to the safe was
changed. Based on the report, SIPI has made several other changes: current students are now
provided month-end statements; withdrawal slips are being marked “paid”; prenumbered deposit,
withdrawal, voucher payments, and journal documents are being used to improve controls; and the
accounting office is providing the records clerk with copies of the deposit slips for transcript fees.

As part of SIPI’s on-going review of administrative practices, it has been decided that many of the
student banking services will no longer be provided after the end of this calendar year. There is a
commercial bank less than l/4 mile from campus. , and students will be advised that thev should make
appropriate arrangements with this bank, or any other bank of their choosing, to meet their needs for
checking or savings accounts.

Our response to the specific recommendations contained in the report is provided below.

Recommendations: We recommend that the Assistant Secretary for Indian Affairs ensure that:

       1. Funds improperly transferred to the Institute’s Foundation are returned to the appropriate
accounts.

Response: The Bureau concurs. The Foundation has refunded $12,486 to SIPI (Attachment 1). Of
this amount, SIPI has sent $4,388 to the Division of Accounting Management for deposit to the
credit of the Operation of Indian Programs appropriation account (Attachment 2). The remaining
funds have been deposited in SIPI’s checking account, pending the disposition of this audit.
                                                                                       APPENDIX 1
                                                                                       Page 2 of 3


       2. Written notices are sent to students who had deposit balances remaining in their accounts
when they. left the Institute.

Response: The Bureau does not concur. As a result of the audit work, SIPI staff began a review of
student files in an effort to identify those former students with unclaimed deposits. The former
student files are maintained alphabetically. A staff member at SIPI has completed a review of all
of the “A” files and half of the “B” files. As a result of this review, SIPI mailed notices to 43 prior
students, who, according to the records, had unclaimed refundable deposits totaling $645 (an average
of $15 per person). As of September 4, 1997, eleven individuals have requested refunds totaling
$230 (an average of $21 per person). The smallest refund is $4 and the largest is $50.

Based upon this experience, we estimate that it would take approximately 200 hours just to complete
the file search. The cost of searching the files, preparing and mailing the letters, issuing checks to
those requesting refunds, and the related accounting and other administrative costs associated with
implementation of this recommendation is estimated to be about $5,000. This does not consider the
impact on current operations of work which would have to be delayed to complete this process. If
it is assumed 35 to 40 percent of the funds will be claimed, the amount returned would be between
$2800 and $3240. Given the de minimis individual amounts involved and the fact that the funds
accumulated over a 25 year period, we believe that the interests of the government would best be
served by crediting the remaining funds to SIPI’s appropriation rather that continuing with
implementation of the audit recommendation.

       3. Policies and procedures are developed for disposing of unclaimed deposits after
aggressive actions fail to locate students.

Response: The Bureau concurs. As noted above, SIPI will no longer hold students’ personal funds.
Subsidiary records of refundable deposits will be maintained. When a student leaves without
claiming the amount of any retid which is due, SIPI will provide a written notification to the
former student within one month. If the letter is returned as undeliverable and no forwarding address
is provided, the amount due to that individual will be credited to the appropriation account. If the
letter has not been returned or answered within 30 days, a second letter will be sent. If no response
is received within 30 days of the second letter, the funds will be credited to the appropriations
account. Should a former student contact SIPI after the funds have been transferred to the
appropriations account, funds will be disbursed directly from the appropriation account to the former
student. We consider this recommendation to be resolved and implemented.

        4. Fees collected from payments for items such as lost books or keys and for transcripts are
credited to the Bureau’s appropriate fiscal year appropriation.

Response: The Bureau concurs. As noted in the response to the first recommendation, the amount
previously held for lost books, keys, and transcripts has been forwarded to the Division of
Accounting Management. Rather than make numerous small deposits to the appropriation account,
SIPI will hold the f&ids in its commercial account and will make the transfers to the appropriations
account annually or when the amount reaches $5000, whichever first occurs. We consider this
recommendation to be resolved and implemented.




                                           10
                                                                                  APPENDIX 1
                                                                                  Page 3 of 3

        5. Institute personnel complv with the requirements of the Bureau of Indian AEairs Manual
(62 BIAM) and the Institute’s planof operation regarding controls over student bank operations,
including the specific requirements cited in this report.

Response: The Bureau partially concurs. SIPI will be revising its plan of operations in line with
requiring students to obtain banking services from commercial facilities. SIPI’s r+ced banking
plan will be completed bv November 1997 and submitted to the Director, Office of Indian hxation
Programs, for approval.d Mr. Frank Kekahbah. Registrar, is responsible for the completion of this
action. Updated procedures for student activity clubs will be developed. Mr. Joe Jaramillo, Dean
of Student Services, is responsible for this action.


Attachments

    [NOTE:    ATTACHMENTS NOT INCLUDED BY OFFICE OF INSPECTOR GENERAL.]




                                             11
                                                                      APPENDIX 2




         STATUS OF AUDIT REPORT RECOMMENDATIONS


    Finding/
Recommendation
   Reference           Status                       Action Required

  1, 2, 3, and 4   Implemented.    No fkther action is required.

        5          Resolved; not   No f&her response to the Office of Inspector
                   implemented.    General is required. The recommendations will be
                                   referred to the Assistant Secretary for Policy,
                                   Management and Budget for tracking of
                                   implementation.




                                       12
Sending written documents to:                                Calling:


                    Within the Continental United States

U.S. Department of the Interior                        Our 24.hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, NW.                                     l-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                 Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-O11-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Street, N. W.
